APPENDIX A
United States Court of Appeals
For the Eighth Circuit
No. 18-1723
Kimberly Watso, individually and on behalf of C.H.
and C.P., her minor children; Kaleen Dietrich
Plaintiffs - Appellants
v.
Tony Lourey, in his official capacity as
Commissioner of the Department of
Human Services; Scott County; Judge John E.
Jacobson, in his official capacity;
Tribal Court of the Red Lake Band of Chippewa
Indians; Judge Mary Ringhand,
in her official capacity; Tribal Court of the Shakopee
Mdewakanton Sioux (Dakota) Community
Defendants - Appellees
Appeal from United States District Court
for the District of Minnesota - Minneapolis
Submitted: March 12, 2019
Filed: July 16, 2019
Before GRUENDER, BENTON, and GRASZ, Circuit
Judges.

1a

BENTON, Circuit Judge.
Kimberly Watso, individually and for her minor
children C.P. and C.H., and her mother Kaleen
Dietrich sued the Department of Human Services
Commissioner, Scott County, two tribal courts, and
related tribal judges. They contested the tribal court’s
jurisdiction over C.P. and C.H.’s child custody
proceedings. The district court1 dismissed the
complaint. Having jurisdiction under 28 U.S.C. § 1291,
this court affirms.
Neither Watso nor Dietrich are Indian. Watso’s
children are both Indian. C.P. is a member of the Red
Lake Band of Chippewa Indians through his father
Donald Perkins. C.H. is a member of the Shakopee
Mdewakanton Sioux (Dakota) Community (SMSC)
through his father Isaac Hall.
In January 2015, the SMSC Family and
Children Services Department filed an emergency ex
parte petition in SMSC Court alleging C.P. and C.H.
were children in need of assistance and seeking to
transfer custody to the SMSC’s Child Welfare Office.
This petition initiated child protection proceedings in
SMSC Court. At a hearing the following week, Watso
disputed the SMSC Court’s jurisdiction. The next
month, Watso and Hall brought C.H. to a medical

1

The Honorable Ann D. Montgomery, United States
District Judge for the District of Minnesota, adopting the report
and recommendation of the Honorable Katherine M. Menendez,
United States Magistrate Judge for the District of Minnesota.

2a

clinic. The clinic reported possible child abuse and
neglect. A county Police Department issued a Notice of
a 72-Hour Police Health and Safety Hold and notified
the parents that C.P. and C.H. would be held at
Children’s Hospital in St. Paul.
The Indian Child Welfare Manual (the Manual)
of the Minnesota Department of Human Services
instructs local social service agencies to refer
proceedings involving the welfare of tribal-member
children to “the tribal social service agency for
appropriate proceedings in tribal court.” Consistent
with these instructions, Scott County officials
contacted the SMSC Family and Children Services
Department. The Department filed a second ex parte
motion in SMSC Court, seeking to transfer legal and
physical custody of C.H. and C.P. Watso was notified.
She objected to the SMSC Court’s jurisdiction. The
SMSC Court overruled her objection and transferred
temporary legal and physical custody of C.P. and C.H.
to SMSC Family and Children Services Development.
In January 2017, the Red Lake Band moved to
dismiss the proceedings regarding C.P. The SMSC
Court granted the motion, allowing the Red Lake Band
jurisdiction over C.P. The Red Lake Band Court
appointed Dietrich as C.P.’s guardian. As C.H.’s
guardian, the SMSC Court appointed a paternal greataunt and tribal member.
Watso (individually and for C.P. and C.H.) and
Dietrich sued Department of Human Services
Commissioner Emily Piper, Scott County, SMSC, the
3a

SMSC Court, SMSC Judge John E. Jacobson, the Red
Lake Band, the Red Lake Band Court, and Red Lake
Band Judge Mary Ringhand. They allege that the
transfer of custody violated the Indian Child Welfare
Act of 1978 (ICWA) and their federal constitutional
rights. The district court dismissed the complaint. This
court reviews a grant of a motion to dismiss de novo,
accepting as true all factual allegations in the
complaint, and drawing all reasonable inferences in
the nonmovant’s favor. See Topchian v. JPMorgan
Chase Bank, N.A., 760 F.3d 843, 848 (8th Cir. 2014).
According to Watso and Dietrich, part of the
Manual is preempted by the ICWA. They allege the
Manual unlawfully instructed Scott County to refer
C.P. and C.H.’s child custody proceedings to a tribal
court because the referral conflicts with the ICWA,
which vests jurisdiction first with the states. This
argument fails because the ICWA does not vest
jurisdiction first with the states.
Watso and Dietrich invoke the ICWA provision
about the process for state courts to transfer child
custody proceedings to tribal courts:
In any State court proceeding for the
foster care placement of, or termination
of parental rights to, an Indian child not
domiciled or residing within the
reservation of the Indian child’s tribe, the
court, in the absence of good cause to the
contrary, shall transfer such proceeding
to the jurisdiction of the tribe, absent
4a

objection by either parent, upon the
petition of either parent or the Indian
custodian or the Indian child’s tribe:
Provided, That such transfer shall be
subject to declination by the tribal court
of such tribe.
25 U.S.C. § 1911(b). Watso and Dietrich believe this
provision means that “the tribe does not have
jurisdiction over a child held by the state until the
state court transfers jurisdiction to the tribe, which
can only occur after a state court ICWA hearing.” To
the contrary, § 1911(b) does not require a state court
hearing. Section 1911(b) addresses the transfer of
proceedings from state court to tribal court. Here,
there were no state court proceedings. There was no
transfer from state court to tribal court. Section
1911(b) does not apply.
Watso and Dietrich counter that § 1911(b)
applies because there was a transfer from the state to
the tribal court when Scott County officials, agents of
the state, referred C.P. and C.H.’s child custody
proceedings to SMSC Court. This misreads the statute.
Section 1911(b) applies to transfers from a “State court
proceeding,” not from a state agency.
The ICWA “establishes exclusive jurisdiction in
the tribal courts for proceedings concerning an Indian
child ‘who resides or is domiciled within the
reservation of such tribe,’ as well as for wards of tribal
courts regardless of domicile.” Mississippi Band of
Choctaw Indians v. Holyfield, 490 U.S. 30, 36
5a

(1989), quoting 25 U.S.C. § 1911(a). It “creates
concurrent but presumptively tribal jurisdiction in the
case of children not domiciled on the reservation.” Id.,
citing 25 U.S.C. § 1911(b).2 There is no conflict
between the Manual’s requirement that local social
service agencies refer child custody proceedings
involving Indian children to tribal social service
agencies for proceedings in tribal court, and the
ICWA’s recognition of exclusive or presumptive tribal
jurisdiction for child custody proceedings involving
Indian children.
Watso and Dietrich next argue that Public Law
280 requires a state court hearing before a tribal court
can exercise jurisdiction. Public Law 280 states in
part:
[Minnesota] shall have jurisdiction over
civil causes of action between Indians or
to which Indians are parties which arise
in [Indian country within Minnesota,
except the Red Lake Reservation] to the
same extent that [Minnesota] has
jurisdiction over other civil causes of
action, and those civil laws of
[Minnesota] that are of general
application to private persons or private
property shall have the same force and
effect within such Indian country as they

2

The record contains muddled information about C.H. and
C.P.’s residency, domicile, and whether they became wards of the
SMSC Court. This court need not resolve these issues here.

6a

have elsewhere within [Minnesota].
28 U.S.C. § 1360(a). Public Law 280 does not require
a state court hearing or any state court proceedings.
See Walker v. Rushing, 898 F.2d 672, 675 (8th Cir.
1990) (“Nothing in the wording of Public Law 280 or its
legislative history precludes concurrent tribal
authority.”); Doe v. Mann, 415 F.3d 1038, 1063 n. 32
(9th Cir. 2005) (“Public Law 280 states have only
concurrent jurisdiction with the tribes over child
custody proceedings involving Indian children.”), citing
Native Village of Venetie I.R.A. Council v. State of
Alaska, 944 F.2d 548, 562, 559–62 (9th Cir. 1991)
(rejecting argument that Public Law 280 vested
enumerated states with exclusive jurisdiction). The
SMSC Court’s jurisdiction over C.P. and C.H.’s child
custody proceedings is consistent with Public Law 280.
Lastly, Watso and Dietrich allege that the
absence of a state court proceeding violated their due
process rights, based on parents’ fundamental right “to
make decisions concerning the care, custody, and
control of their children.” Troxel v. Granville, 530
U.S. 57, 66 (2000) (invalidating state law that allowed
any third party to petition state courts for child
visitation rights over parental objections). They allege
due process rights “to object and to stop the transfer,
a right to notice and a right to a meaningful court
hearing.” Watso and Dietrich had sufficient notice of
the tribal court proceedings. They were heard in tribal
court. They have presented no evidence of a due
process violation.

7a

*******
The judgment is affirmed.

8a

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Kimberly Watso, individually and on behalf of
C.H and C.P., her minor children; and Kaleen
Dietrich,
Plaintiffs,
v.

Civil No. 17-562 ADM/KMM

Emily Piper, in her official capacity as Commissioner
of the Department of Human Services; Scott
County; Judge John E. Jacobson, in his official
capacity; Tribal Court of the Red Lake Band of
Chippewa Indians; Judge Mary Ringhand, in her
official capacity; and Tribal Court of the Shakopee
Mdewakanton Sioux (Dakota) Community.
Defendants.
MEMORANDUM OPINION AND ORDER
Erick G. Kaardal, Esq., and William F. Mohrman,
Esq., Mohrman, Kaardal & Erickson, P.A.,
Minneapolis, MN, on behalf of Plaintiffs.
Aaron Winter, Assistant Attorney General, Minnesota
Attorney General’s Office, St. Paul, MN, on behalf of
Defendant Emily Piper.
James R. Andreen, Esq., Erstad & Riemer, P.A.,
9a

Minneapolis, MN, on behalf of Defendant Scott
County.
Cicely R. Miltich, Esq., Faegre Baker Daniels, Chicago,
IL; Greg S. Paulson, Esq., Brodeen & Paulson,
P.L.L.P., Minneapolis, MN; Joshua T. Peterson, Esq.,
and Richard A. Duncan, Esq., Faegre Baker Daniels
LLP, Minneapolis, MN, on behalf of Defendants Judge
John E. Jacobson and Tribal Court of the Shakopee
Mdewakanton Sioux (Dakota) Community.
Joseph M. Plumer, Esq., Plumer Law Officer, Bemidji,
MN, and Richard A. Duncan, Esq., Faegre Baker
Daniels LLP, Minneapolis, MN, on behalf of
Defendants Tribal Court of the Red Lake Band of
Chippewa Indians and Judge Mary Ringhand.
I. INTRODUCTION
This matter is before the undersigned United
States District Judge for a ruling on Plaintiffs
Kimberly Watso and Kaleen Dietrich’s (collectively,
“Plaintiffs”) Objection [Docket No. 119] to Magistrate
Judge Katherine M. Menendez’s December 5, 2017
Report and Recommendation [Docket No. 117]. In the
R&R, Judge Menendez recommends granting
Defendants Judge John E. Jacobson and Tribal Court
of the Shakopee Mdewakanton Sioux (Dakota)
Community’s Motion to Dismiss [Docket No. 12],
granting Defendant Emily Piper’s Motion to Dismiss
[Docket No. 29], granting Defendant Scott County’s
Motion to Dismiss [Docket No. 46], granting
Defendants Judge Mary Ringhand and Tribal Court of
10a

the Red Lake Band of Chippewa Indians’ Motion to
Dismiss [Docket No. 53], and denying as moot
Plaintiffs’ Motion for Partial Summary Judgment
[Docket No. 103].1 For the reasons set forth below,
Plaintiffs’ Objection is overruled.
II. BACKGROUND
This lawsuit challenges child custody transfers
from Scott County, Minnesota to the Shakopee
Mdewakanton Sioux (Dakota) Community Court
(“SMSC Court”). Plaintiffs argue that federal law
requires a prior state court proceeding before a tribal
court may exercise jurisdiction over child custody
proceedings. Plaintiffs seek prospective declaratory,
injunctive, and other relief, and also seek to invalidate
tribal court proceedings and to regain parental control
over the minor children.
A.

Factual Background

Kimberly Watso (“Watso”) is the mother of
minor children C.P. and C.H. Compl. [Docket No. 1] ¶
1. C.P. is a member of the Red Lake Band of Chippewa
Indians (“Red Lake Band”). Id. ¶ 2. C.H. is a member
of the Shakopee Mdewakanton Sioux (Dakota)
Community (“SMSC”). Id. ¶ 3. Kaleen Dietrich
(“Dietrich”) is the maternal grandmother of C.H. and
C.P. Id. ¶ 5. Neither Watso nor Dietrich are Indians.

1

Other defendants were dismissed from this case based
upon the parties’ stipulations. See Stipulation [Docket Nos. 71,
97]; Notice [Docket No. 98].

11a

Id. ¶¶ 1, 5.
On January 22, 2015, a representative of the
SMSC Family and Children Services Department filed
a Petition in the SMSC Court seeking a determination
that C.P. and C.H. were children in need of assistance,
and requesting a transfer of their custody to the SMSC
Child Welfare Office. Watso v. Jacobson, et al. No. 16983, Docket No. 1 ¶ 52 (D. Minn. May 31, 2016). At a
January 28, 2015 hearing, Watso was present to
dispute the SMSC Court’s jurisdiction. Id. ¶ 54.
On February 24, 2015, C.H. was examined at a
medical center. Compl. ¶ 18. The exam resulted in a
report of possible child abuse or neglect by Watso and
Isaac Hall, the biological father of C.H. and a member
of SMSC. Id. ¶¶ 15, 19. A detective with the Shakopee
Police Department issued a Notice of 72-Hour Police
Health and Safety Hold, notifying the parents that
C.P. and C.H. would be held at Children’s Hospital in
St. Paul, Minnesota.2
On February 25, 2015, the SMSC Court received
an Emergency Ex Parte Motion to Transfer Legal and
Physical Custody of the children. Id. Ex. 4. This
motion was brought in the context of preexisting child
welfare proceedings initiated on January 22, 2015.

2

Magistrate Judge Menendez correctly noted that
although the Complaint alleges that Scott County placed the
administrative hold on the children, Exhibit 3 to the Complaint
indicates that the hold was generated by the Shakopee Police
Department. Compare Compl. ¶ 20, with Compl. Ex. 3.

12a

Although filed ex parte, Watso was notified of the
motion and she objected to the SMSC Court’s exercise
of jurisdiction. Compl. ¶¶ 130–36. The SMSC Court
overruled Watso’s objections, and transferred
temporary legal and physical custody of C.P. and C.H.
to SMSC Family and Children Services Development.
In so ruling, the SMSC Court rejected Watso’s
argument that it lacked subject matter jurisdiction
because a Minnesota state court had not first
determined that jurisdiction should be transferred to
a tribal court. Id. Ex. 5.
On January 17, 2017, the SMSC Court granted
the Red Lake Band’s motion to dismiss the tribal court
proceedings regarding C.P., “allowing the Red Lake
Nation to take jurisdiction over C.P.” Id. ¶ 21.
Watso claims that the transfer of custody from
Scott County violated the Indian Child Welfare Act, 25
U.S.C. §§ 1901–1963, her federal constitutional rights,
and other provisions of federal law.
B.

Procedural History

Defendants moved to dismiss the complaint, and
on April 11, 2017, this Court referred all pending
motions to Judge Menendez. See Order [Docket No.
66]. Oral argument was held on May 25, 2017. See
Min. Entry [Docket No. 94]. On November 22, 2017,
while Defendants’ dispositive motions were under
advisement, Plaintiffs filed a Motion for Partial
Summary Judgment [Docket No. 103].

13a

On December 5, 2017, Judge Menendez filed a
Report and Recommendation (“R&R”) granting the
Defendants’ dispositive motions, denying Plaintiffs’
Motion for Partial Summary Judgment, and
dismissing the Complaint. Judge Menendez reasoned
that Plaintiffs’ claims for relief were premised upon a
flawed legal theory. On December 18, 2017, Plaintiffs
filed their Objections to the R&R.
III. DISCUSSION
A.

Standard of Review

The standard of review of a magistrate judge's
order on a dispositive issue is de novo. See 28 U.S.C. §
636(b)(1)(C); D. Minn. LR 72.2. “The district judge may
accept, reject, or modify the recommended disposition;
receive further evidence; or return the matter to the
magistrate judge with instructions.” D. Minn L.R.
72.2(b).
B.

Plaintiffs’ Objection
1.
Legal Standards and Matters Outside
the Pleadings

Plaintiffs first argue that the R&R is erroneous
because it failed to apply Rule 12 of the Federal Rules
of Civil Procedure. Contrary to Plaintiffs’ contention,
the R&R viewed the factual averments within the
Complaint as true and concluded that the pleaded
facts do not support their legal theory. Accepting as
true all facts alleged in the complaint and then
14a

determining whether those facts state a plausible
claim for relief are the touchstones of Rule 12. See
Ashcroft v. Iqbal, 556 U.S. 662, 677–78 (2009). Thus,
the R&R appropriately applied the standards of Rule
12.
Plaintiffs next argue that the R&R erred in
recommending dismissal of the case based on a flawed
legal theory. Plaintiffs contend that Rule 8 of the
Federal Rules of Civil Procedure merely requires “a
short and plain statement,” and that an imperfect
statement of the legal theory supporting their claims
is not a basis to dismiss the complaint. The R&R noted
that the “precise contours of the plaintiffs’ primary
argument are not spelled out clearly in the Complaint
or in their response to the motions to dismiss.” R&R at
6. The R&R reasoned that dismissal was appropriate
because Plaintiffs’ claims rely upon “a particular
statutory analysis” that “is incorrect.” Id. Thus, the
R&R recommended dismissal based on a legal theory
that was incorrect rather that merely imprecise.
Plaintiffs also argue that the R&R improperly
considered Judge John Jacobson’s conclusion that C.H.
and C.P. were children in need of assistance pursuant
to SMSC’s laws, a conclusion that was made in a
January 28, 2015 court hearing. Plaintiffs argue that
this cannot be considered at the Rule 12 stage. This
argument fails for at least two reasons. First, the
challenged citation is a court ruling that does not
contradict the allegations in the Complaint. Such
matters may be considered on a motion to dismiss. See
Porous Media Corp v. Pall Corp., 186 F.3d 1077, 1079
15a

(8th Cir. 1999) (noting that “some public records” may
be considered on a motion to dismiss). Second, the
citation, which is located in a footnote, is not the
foundation upon which the R&R’s conclusion rests.
Rather, it was cited to note that another independent
basis to dismiss the Complaint may exist. Since the
citation was collateral to the R&R’s conclusion, the
motion to dismiss did not need to be converted to a
motion for summary judgment. See Stahl v. U.S. Dep’t
of Agric., 327 F.3d 697, 701 (8th Cir. 2003) (holding
that it was not error for the district court to consider
materials outside of the pleadings at the Rule 12 stage
that were “irrelevant to its resolution of the merits of
the motion”).
2.

Supremacy Clause

Plaintiffs’ primary objection goes to the merits
of their claims. Plaintiffs contend that Minnesota’s
Department of Human Services Indian Child Welfare
Manual (the “Manual”) conflicts with the Indian Child
Welfare Act (the “ICWA”) and its implementing
regulations regarding jurisdiction and the procedure
for transferring child custody proceedings involving
Indian children to tribes. Defendants respond that the
Manual and the ICWA are not in conflict and that the
transfer procedure that occurred here did not violate
federal law.
The crux of Plaintiffs’ argument is that federal
law is in conflict with the Manual, which instructs
social services agencies in how to address child custody
proceedings involving Indian children. Resolution of
16a

this case lies at the intersection of two statutes, the
ICWA and Public Law 280. Passed in 1953, Public Law
83-280 (“PL 280”), delegated jurisdiction over many
civil matters that arose in “Indian country” to specified
states:
Each of the States listed in the following
table shall have jurisdiction over civil
causes of action between Indians or to
which Indians are parties which arise in
the areas of Indian country listed
opposite the name of the State to the
same extent that such State has
jurisdiction over other civil causes of
action, and those civil laws of such State
that are of general application to private
persons or private property shall have
the same force and effect within such
Indian country as they have elsewhere
within the State[.]
28 U.S.C. § 1360(a). All Indian country in Minnesota
is subject to PL 280 except the Red Lake Band. Id.
The ICWA, which was enacted prior to PL 280,
provides that “[a]n Indian tribe shall have jurisdiction
exclusive as to any State over any child custody
proceeding involving an Indian child who resides or is
domiciled within the reservation of such tribe, except
where such jurisdiction is otherwise vested in the
State by existing Federal law.” 25 U.S.C. § 1911(a).
Plaintiffs argue that the “except where such
jurisdiction is otherwise vested in the State by existing
17a

Federal law” language in the ICWA means that in PL
280 states, the state has exclusive jurisdiction over
civil causes of action, including child custody
determinations.3
The Ninth Circuit, in Native Village of Venetie
I.R.A. Council v. State of Alaska, 944 F.2d 548 (9th
Cir. 1991), rejected Plaintiffs’ argument. In that case,
the Ninth Circuit ruled that PL 280 “is not a
divestiture statute,” but rather that it provided
concurrent jurisdiction among state and tribal courts.
Id. at 560–61. Critically, “neither [ICWA] nor Public
Law 280 prevents [the native villages] from exercising
concurrent jurisdiction.” Id. at 562. The jurisdictional
framework described in Native Village undermines
Plaintiffs’ argument that SMSC lacked jurisdiction
over the custody determinations.
In an effort to rebut that conclusion, Plaintiffs
cite to 25 U.S.C. § 1918(a)’s procedure for tribes to
reassume jurisdiction over child custody proceedings:
“Any Indian tribe . . . may reassume jurisdiction over
child custody proceedings.” 25 U.S.C. § 1918(a).
Plaintiffs argue if PL 280 did not strip tribes of
jurisdiction over custody proceedings, then the
procedure for tribes to “reassume” jurisdiction
described in § 1918(a) would be superfluous. Native
Village persuasively rejected this same argument.
Since tribes in PL 280 states retain at least concurrent

3

As noted in the R&R, it is unnecessary to resolve
whether the custody determination here properly falls within the
“civil causes of action” ambit of PL 280.

18a

jurisdiction with the state, and since concurrent
jurisdiction is a narrower jurisdictional scope than
exclusive jurisdiction, § 1918’s procedure for tribes to
reassume jurisdiction has meaning. “Thus, there is
something for a tribe to reassume under section 1918
. . . even if [PL 280] is read as not divesting the tribes
of concurrent jurisdiction. Native Village, 944 F.3d at
561.
Undeterred, Plaintiffs next rely on Doe v. Mann,
415 F.3d 1038 (9th Cir. 2005), to assert the proposition
that Minnesota, as a PL 280 state, has exclusive
original jurisdiction over Indian child welfare
proceedings. That proposition finds no support in Doe.
Rather, Doe continued to recognize Native Village’s
holding that “Public Law 280 states have only
concurrent jurisdiction with the tribes over custody
proceedings involving Indian children.” 415 F.3d at
1063 n.32.
Plaintiffs additionally assert that under §
1911(b), jurisdictional transfers of child custody
proceedings involving children neither residing nor
domiciled within the reservation of an Indian tribe
must be initiated by the state.4 Thus, Plaintiffs argue,
4

Plaintiffs’ Complaint fails to allege where C.P. and C.H.
resided or were domiciled at the time Scott County transferred
proceedings to SMSC, critical facts in this case. In their Objection,
Plaintiffs aver that “[n]either C.P. nor C.H. was residing nor
domiciled within the reservation of a non-Public Law 280 Indian
tribe at the time of the County transfer of C.P. and C.H. to
SMSC.” Obj. at 9. This averment, made without attribution,
conflicts with a March 3, 2016, SMSC decision that noted C.P. and

19a

Scott County’s transfer to SMSC violated federal law.
This argument is also flawed. Section 1911(b) only
applies in a “State court proceeding.” No state court
proceeding existed at the time the proceedings here
were transferred to SMSC. SMSC had initiated child
protection proceedings on January 22, 2015, which
were pending when the Shakopee Police Department
issued the 72-hour hold on February 24, 2015.
Moreover, there is no requirement that the state
initiate proceedings before Scott County could transfer
the case to SMSC. The Supreme Court has held that §
1911(b) “creates concurrent but presumptively tribal
jurisdiction in the case of children not domiciled on the
reservation.” Miss. Band of Choctaw Indians v.
Holyfield, 490 U.S. 30, 36 (1989). Thus, Holyfield
contradicts Plaintiffs’ argument that a state court
proceeding must first be initiated.
Finally, Plaintiffs cite federal regulations
stating that ICWA preempts state law, policies, or
customs when they fail to exist or to meet the
minimum federal standards set forth in ICWA: “where
applicable State or other Federal law provides a higher
standard of protection to the rights of the parent or
Indian custodian than the protection accorded under
the Act, ICWA requires the State or Federal court to
C.H. were domiciled on the Shakopee Reservation at the time the
child welfare proceeding was initiated. Duncan Decl. [Docket No.
16] Ex. A [Docket No. 17] at 5. The record therefore reflects that
C.P. and C.H. fall within § 1911(a). Nevertheless, the Court will
additionally analyze this case as though C.P. and C.H. did not
reside on the Reservation at the time custody proceedings were
initiated.

20a

apply the higher State or Federal standard.” 25 C.F.R.
§ 23.106(b).5 In their Objection, Plaintiffs identify
multiple instances where the Manual purportedly
conflicts with ICWA or its regulations. For example,
Plaintiffs contend that the Manual permits agencies to
refer Indian children to tribes and that under §
1911(b), only state courts can transfer proceedings to
tribes. But, as discussed above, there is no conflict; §
1911(b) applies only when a state court proceeding has
been initiated. None of the other instances identified
by Plaintiffs present an actual conflict between the
Manual and ICWA.

5

Defendants contend that arguments concerning C.F.R.
§ 23.106(b) should not be considered because they are raised for
the first time in this Objection. Defendants are correct that
Plaintiffs did not explicitly invoke 25 C.F.R. § 23.106(b) when
resisting Defendants’ dispositive motions. But, Plaintiffs did cite
this regulation as a basis for prevailing in their Motion for Partial
Summary Judgment. Although the R&R did not specifically
address the arguments Plaintiffs raised in their Motion for Partial
Summary Judgment, it is reasonable to infer from Judge
Menendez’s ruling that those arguments were unpersuasive.
Moreover, in opposing Defendants’ dispositive motions, Plaintiffs
asserted that the Manual is preempted by ICWA provisions for
the same reasons raised here. See Id. at 29 (“The [Manual] . . .
authorizes administrative transfers to Public Law 280 tribes
without parental consent and without a prior state court
proceeding [which] is preempted by the provisions of the ICWA”);
48 (“[B]oth SMSC and Red Lake Nation lack jurisdiction because
the ICWA preempts tribal court jurisdiction for Indian children off
of non-Public Law 280 reservations until a state court proceeding
transferring the matter to tribal court.”). Therefore, Plaintiffs’
preemption arguments were previously raised and the merits of
Plaintiffs’ Objection will be addressed.

21a

3.
Sovereign Immunity and Remaining
Claims
Plaintiffs also object to the R&R’s conclusions
that claims against Judge John E. Jacobson and Judge
Mary Ringhand are barred by sovereign immunity,
and that claims against Emily Piper (“Piper”), in her
official capacity as Commissioner of the Department of
Human Services, and Scott County should be
dismissed because they are premised on the flawed
legal theory discussed above.
Plaintiffs do not specifically identify how the
R&R erred with respect to its analysis and conclusions
regarding sovereign immunity and the claims against
Piper and Scott County. Rather, Plaintiffs reiterate
their contention that SMSC lacked jurisdiction over
C.P. and C.H. As discussed above, Plaintiffs’
contention is incorrect; SMSC did have jurisdiction
over C.P. and C.H. Therefore, this portion of Plaintiffs’
objection is also overruled.
IV. CONCLUSION
Based upon the foregoing, and all of the files,
records and proceedings herein, IT IS HEREBY
ORDERED that:
1.

Plaintiffs Kimberly Watso and Kaleen Dietrich’s
Objections [Docket No. 119] to the December 5,
2017 Report and Recommendation are
OVERRULED;

22a

2.

The Report and Recommendation [Docket No.
117] is ADOPTED;

3.

Defendants Judge John E. Jacobson and Tribal
Court of the Shakopee Mdewakanton Sioux
(Dakota) Community’s Motion to Dismiss
[Docket No. 12], is GRANTED;

4.

Defendant Emily Piper’s Motion to Dismiss
[Docket No. 29] is GRANTED;

5.

Defendant Scott County’s Motion to Dismiss
[Docket No. 46] is GRANTED;

6.

Defendants Judge Mary Ringhand and Tribal
Court of the Red Lake Band of Chippewa Indians’
Motion to Dismiss [Docket No. 53] is GRANTED;

7.

Plaintiffs’ Motion for Partial Summary
Judgment [Docket No. 103] is DENIED AS
MOOT; and

8.

The Complaint [Docket No. 1] is DISMISSED.

LET
JUDGMENT
ACCORDINGLY.

BE

ENTERED

BY THE COURT:

Dated: March 27, 2018.

s/Ann D. Montgomery
ANN D. MONTGOMERY
U.S. DISTRICT JUDGE

23a

